CRYPTOGRAPHIC INFRASTRUCTURE DESIGN



          Audit Report No. 99-016
             March 19, 1999




          OFFICE OF AUDITS

    OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                        Office of Audits
Washington, D.C. 20434                                                          Office of Inspector General




   DATE:                 March 19, 1999

   TO:                   Donald C. Demitros, Director
                         Division of Information Resources Management




   FROM:                 David H. Loewenstein
                         Assistant Inspector General

   SUBJECT:              Cryptographic Infrastructure Design
                         (Audit Report No. 99-016)


   The Federal Deposit Insurance Corporation's (FDIC) Office of Inspector General (OIG) has
   completed an audit of the design and implementation of computer-based cryptography for
   sensitive and critical corporate data. This was the second of two audits addressing the
   Corporation's planned use of cryptography.

   Our first audit report, Implementation of Electronic Signatures to Support the Electronic Travel
   Voucher Payment System (ETVPS) and Other Planned Applications (Audit Report Number 98-
   052), was issued on June 30, 1998. That report focused on planning and management for
   providing encryption and digital signature technology in support of FDIC systems and data and
   contained three recommendations for improvements in the FDIC's methodology for developing
   its electronic signature infrastructure. We recommended that the FDIC develop a long-range plan
   and system architecture to bring the FDIC's electronic signature approach into full compliance
   with government-wide standards and U.S. General Accounting Office (GAO) requirements. We
   also recommended that the FDIC perform an alternatives and cost/benefit analysis comparing
   available alternatives for satisfying the FDIC's electronic signature needs. In addition, we
   recommended that the FDIC ensure that all Division of Information Resources Management
   (DIRM) security and program managers communicate on a regular basis to share pertinent
   information. DIRM provided a response indicating that it would address the recommendations
   and provided documentation during this audit demonstrating its efforts, thus far, to do so. This
   audit focused on DIRM’s continued planning and management efforts related to encryption and
   electronic signature issues and its implementation of this technology for low- and moderate-risk
   application systems.

   BACKGROUND

   The FDIC is currently developing several major automated systems intended to reduce costs and
   paperwork. These systems are being designed to use cryptography for secure transmission and
   electronic approval of documents for payment or authorization purposes. Two recently
   developed applications designed to make use of cryptography are the Performance Reports On-
   Line System (PROS) and ETVPS.
Cryptography is the process of writing in or interpreting secret code. Effective use of public key
cryptography provides the ability to securely exchange information with only selected recipients. A
Public Key Infrastructure (PKI)1 is the implementation of public key cryptography using computer
hardware and software to establish trusted information-sharing among a select group of people.
This framework includes the use of electronic credentials, often called digital certificates, and the
management of public and private keys2 needed to encode and electronically sign data and to decode
and verify the integrity of electronically signed data produced by others. With electronically signed
data, the recipient is assured of the signer's identity and that the signed data have not been altered.

The FDIC is currently using cryptography in two recently developed applications. The first,
PROS, is an application designed to disseminate uniform bank, bank holding company, and
uniform thrift performance reports to Division of Supervision and state bank examiners through
the FDIC Intranet and the Internet, respectively. Additionally, ETVPS is a client server3-based
application designed to provide a paperless method of handling travel arrangements and expense
reimbursements.

The FDIC acquired and is implementing ENTRUST, a software product, to support its initial
implementation of PKI technology for low- to moderate-risk applications such as ETVPS.

The National Institute of Standards and Technology (NIST) has a core mission of promoting
economic growth by working with industry to develop technology, measurements, and standards.
NIST has taken a leadership role in the development of standards for federal PKI that support
electronic signatures and encryption services. One of NIST’s primary roles in this capacity is
coordinating the Federal Information Processing Standards (FIPS) 140-1 Security Requirements
for Cryptographic Modules validation program. NIST performed a cryptographic module
validation (CMV) of the ENTRUST cryptographic module (CM) and assigned it a level-one
rating when operating in FIPS-mode, the mode tested by NIST. Such a rating is the lowest on a
scale of 1 to 4 and indicates that ENTRUST CM will provide security suitable for use within a
security system supporting low- to moderate-risk applications. However, this rating only applies
when the CM is operating on a single workstation, in single-user mode, under a Microsoft
Windows operating system.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to determine the adequacy of controls supporting the FDIC’s
(1) encryption and authentication of data transmitted during an active session on an unsecured
external telecommunications network and (2) implementation of hardware and software to
provide initial encryption and electronic signature capabilities to support planned low- to
moderate-risk paperless application systems. To accomplish our audit objectives, we reviewed

1
  A set of policies, procedures, hardware, and software used to manage the public/private key pairs to provide the ability
to digitally sign or verify signed documents and encrypt or decrypt data.
2
  A numeric value that, along with a cryptographic algorithm, can encrypt, decrypt, sign, and verify data.
3
  A computer system characterized by an information technology architecture where software is distributed to both a user
workstation and a network server for coordinated execution.
                                                            2
DIRM’s conceptual design for providing encryption and PKI services, documentation related to
security features of hardware and software supporting the implementation of encryption and
electronic signature technologies, and other related documentation. We also interviewed DIRM
personnel, ENTRUST manufacturer representatives, ENTRUST User Group representatives, and
officials from NIST and GAO. We conducted the audit between April 1997 and November 1998
in accordance with generally accepted government auditing standards.

The scope of this audit was limited to an evaluation of DIRM’s (1) deployment of secure-
sockets-layer (SSL)4 software to secure access to PROS; (2) deployment of ENTRUST to
establish an initial PKI to support ETVPS; and (3) compliance with NIST and GAO requirements
for carrying out these actions.

RESULTS OF AUDIT

DIRM implemented sufficient controls to support the use of SSL with PROS. Further, DIRM
implemented some of the controls needed to support use of the ENTRUST manager, admin, and
client components as the backbone of the FDIC PKI for low- to moderate-risk business
applications. However, DIRM’s system qualification testing (SQT) to ensure that functional
requirements were satisfied was incomplete. Further, DIRM did not ensure adequate separation
of duties for sensitive operations by employing ENTRUST’s multiple authorization feature. In
addition, security for the FDIC’s PKI operations was reduced because the database that stores
authenticated public-key certificates and the certificate authority that assures the authenticity of a
digital certificate were operating from the same hardware platform in conflict with GAO
requirements, which call for separate platforms. Finally, PKI internal control practices were not
fully documented, and the FDIC's automated registration process for ENTRUST allowed the
possibility for users to masquerade as other users.

DIRM demonstrated its intent to institute corrective actions in response to our recommendations
throughout the audit. For example, during our review of the use of SSL with PROS, DIRM
expanded its testing and tightened access privileges to sensitive files. Further, DIRM expanded
its PROS security documentation to describe how a router was being used to prevent
unauthorized access from the Internet. In addition, DIRM substantially improved its ENTRUST
security and control documentation in response to our observations and suggestions. For
example, DIRM established a PKI Concept of Operations, documenting its plans for
implementing and operating its PKI operations, and developed an ENTRUST Installation
Document. DIRM also enhanced its PKI policies and procedures related to low- and moderate-
risk applications. Finally, DIRM committed to enhancing future controls by implementing a
FIPS 140-1 level-three-compliant hardware certificate authority to establish a single PKI to
support the FDIC’s high-, medium-, and low-risk business applications.

Appendix I contains more detail on some specific conditions noted during this audit. These
conditions are generally described in the following sections of this report, and more details are

4
  An industry standard software-based protocol designed to provide privacy during telecommunications between two
sites using cryptography.
                                                         3
presented in appendix I due to their technical nature.

ENTRUST SYSTEM QUALIFICATION TESTING COULD BE IMPROVED

DIRM Security had not performed thorough and complete SQT for ENTRUST. DIRM Security
officials indicated that SQT for ENTRUST was not necessary because the ENTRUST
cryptographic module had undergone NIST accreditation for conformance to FIPS 140-1
Security Requirements for Cryptographic Modules. Thorough and complete SQT is needed to
ensure that a system is functioning as intended and provides adequate security and controls.

We confirmed that NIST had performed FIPS 140-1 cryptographic module validation (CMV)
testing for ENTRUST’s cryptographic module component. However, NIST’s CMV testing does
not impact the FDIC’s need to test ENTRUST implementation in its actual operating
environment. NIST testing for ENTRUST was conducted in a laboratory setting with the
cryptographic module running on a single, non-networked microcomputer operating in single-
user mode under Microsoft Windows operating systems. By contrast, the FDIC operates a series
of local area networks connected by a wide area network and intends to use ENTRUST in a
multi-user mode. In addition, we noted that the NIST testing was not applied to all features of
ENTRUST, and the operating system tested differed from the Sun Solaris operating system used
by the FDIC.

The FDIC’s system development life cycle methodology requires SQT for all software
development and acquisition activities to ensure that functional requirements have been
addressed. Prudent information resources management dictates thorough testing of any complex
process involving new information technology such as a PKI. Also, cryptographic algorithms,
the formulas that provide the basis for encryption used by the U.S. Government, must be
sanctioned by NIST and are currently limited to three specific algorithms. Accordingly,
ENTRUST system users should not be provided the option of selecting cryptographic algorithms
that may not be compliant with NIST standards. Finally, any cryptographic modules used by the
U.S. Government for conducting official business must conform to FIPS 140-1 Security
Requirements for Cryptographic Modules as well as GAO requirements.

Several major ENTRUST control features were not supported by evidence of SQT. Ineffective
operation of these control features could expose the FDIC’s related processes, data, and systems
to increased risk of inappropriate and undetected activity. Specific examples of the major
ENTRUST control features that were not thoroughly and completely tested are listed in appendix I.

We identified four causes for DIRM’s incomplete testing of ENTRUST. First, DIRM Security
officials interpreted the FIPS 140-1 CMV testing as being an all-inclusive substitute for in-house
SQT. Second, the ENTRUST design feature that permits users to select the encryption
algorithms to be employed is subtle and can be overlooked. Third, ENTRUST operation in non-
FIPS mode is a system default and the use of this system default was a design decision to
facilitate the use of ENTRUST with certain cryptographic hardware devices that require keys to
be loaded in clear text. Finally, DIRM Security’s evaluation and testing of ENTRUST software

                                                 4
did not identify encryption-option-method-selection and operating-in-non-FIPS-mode design
features as potential control issues.

The effect of an incomplete ENTRUST SQT is that the implemented PKI may not function as
intended by management. As discussed earlier, the FDIC’s planned implementation of
ENTRUST permitted users to select the cryptographic algorithm to be used. Such an option may
result in FDIC users employing algorithms not sanctioned by NIST to encrypt sensitive corporate
data. Consequently, sensitive corporate data may be subject to unauthorized disclosure because
cryptographic algorithms selected may be weaker than NIST-sanctioned algorithms. ENTRUST
can be operated from either FIPS mode or non-FIPS mode. Operating ENTRUST in non-FIPS
mode voids NIST sanctioning and reduces controls. The resultant reduction in controls could
result in corruption of the cryptographic module, including the certificates issued, and provide
the ability to export private cryptographic keys in clear text that has not been encrypted.

After discussing these conditions with DIRM officials, DIRM agreed to perform and document
testing of the PKI control features discussed above, expanded the project schedule to include
additional testing, and provided us with a copy of the revised schedule.

Recommendations

We recommend that the Director, DIRM, continue to:

(1) Ensure that SQT of major PKI control features of and related to ENTRUST are performed and
    documented to supplement the FIPS 140-1 CMV testing.
(2) Enforce the use of only NIST-sanctioned cryptographic algorithms through ENTRUST for
    encrypting sensitive corporate data.
(3) Prevent system users from being able to choose the cryptographic algorithm to be used for
    encrypting sensitive corporate data.
(4) Ensure that the version of ENTRUST used at the FDIC operates in FIPS mode.

ENTRUST MULTIPLE AUTHORIZATION FEATURE NOT IN USE

DIRM missed an opportunity to better control the integrity of its planned PKI operations.
ENTRUST’s multiple authorization feature (MAF) can require the involvement of at least two
individuals to perform and authorize sensitive PKI operations. However, DIRM had not
implemented this control. Instead, this capability was set so that only one individual was
required to perform and authorize sensitive PKI operations. Sensitive PKI operations include
enabling and disabling ENTRUST security officers, administrators, and directory administrators;
setting default lifetimes for user cryptographic keys, certificate revocation lists, and cross-
certificates; and cross-certifying with other certificate authorities.

Prudent PKI management requires the use of system-enforced dual control over sensitive PKI
operations. The manufacturer of ENTRUST recommends that multiple authorizations be used
for sensitive PKI operations. Furthermore, GAO requirements specify the need for dual control
within PKI operations.
                                              5
DIRM officials stated that the MAF was set to permit one person to perform these sensitive
operations for operational efficiency. Further, even though the manufacturer recommends
multiple authorizations for sensitive operations, ENTRUST’s default setting for this function is
set to one and requires modification to provide the recommended security.

A MAF setting of one provides an administrator or security officer the ability to gain access to a
user's ENTRUST identity without the knowledge of at least one other administrator or security
officer. In such an environment, the administrator or security officer can perform sensitive
functions such as establishing the useful life for keys, certificates, and revocation lists. A key is
a numeric value that, along with a cryptographic algorithm, can encrypt, decrypt, sign and, verify
data. A certificate is a tamperproof set of data assigned to an individual for use in the encryption
process. A revocation list is an electronically signed list of revoked certificates. The lifetime
established for these entities determines their strength as a control feature. For example, the
shorter a private key's lifetime, the greater the probability of it not being discovered by
unauthorized parties.

Recommendation

We recommend that the Director, DIRM, ensure that:

(5) The ENTRUST multiple authorization feature be set to a minimum of two so that all sensitive
PKI operations require the involvement of at least two individuals.

THE FDIC’s X500 DIRECTORY AND CERTIFICATE AUTHORITY WERE
OPERATING FROM THE SAME PLATFORM

DIRM’s installation of two major components of the PKI on one workstation reduced security
over DIRM’s operations. A single workstation contained both the X500 directory, used to store
the public keys assigned to users to ensure secure communications, and the certificate authority
(CA) component of ENTRUST that verifies the authenticity of digital certificates created by
users. GAO requires that the X500 directory and CA reside on separate hardware platforms to
preclude unnecessary network access to the CA. The manufacturer of ENTRUST also
recommends that the X500 directory reside on a separate hardware platform from the one
housing other ENTRUST software components to improve security.

DIRM stored the X500 directory and other ENTRUST components on the same hardware
platform to enhance operational convenience and network performance. In fact, the
manufacturer had recommended, for earlier versions of the software, that the X500 directory
reside on the same hardware platform as the other ENTRUST components.

Frequent network access to the hardware platform to obtain certificates from the X500 directory
increases the risk of unauthorized access and compromise to the CA due to potential malfunction
of operating-system-level software that governs access control. Storing the CA on a separate
platform significantly reduces such an exposure.
                                                6
Recommendation

We recommend that the Director, DIRM:

(6) Require operation of the FDIC X500 directory and CA from separate hardware platforms.

PKI INTERNAL CONTROL PRACTICES NOT FULLY DOCUMENTED

DIRM made substantial progress in establishing control practice documentation during our audit.
In response to an OIG recommendation contained in our earlier audit report (98-052), DIRM
established a PKI Concept of Operations. Based upon proposed recommendations during our
current audit, DIRM established an ENTRUST Installation Document and enhanced its Low-to-
Moderate Assurance Certification Policy and Practices Statement. However, documentation
describing the control practices used in operating and managing the PKI remained incomplete.
Missing or incomplete documentation included that related to access controls and other security
features, configuration management to control changes to the software, DIRM’s registration
process for assigning digital certificates to users, and descriptions of files used by the software-
based CA. See appendix I for a more detailed listing of the missing or incomplete
documentation.

A PKI must be thoroughly documented to ensure understanding by management, administration,
and user personnel; consistency with management's intentions; and conformance to prudent
control practices. However, documentation preparation often receives lower priority than other
design and implementation tasks. Because of the importance of this new technology and its
potential impact on corporate operations, it is critical that the implemented PKI be understood,
consistent with management's intentions, and adequately controlled.

DIRM agreed to develop the needed additional PKI control practice documentation that we
identified. DIRM expanded its project schedule to include such documentation requirements and
provided us with a copy of the revised schedule.

Recommendation

We recommend that the Director, DIRM:

(7)    Continue to require that complete and accurate documentation describing the control
       practices used in operating and managing the FDIC PKI be established and maintained.

AUTOMATED REGISTRATION PROCESS INCREASED OPPORTUNITIES FOR
MASQUERADING

When users want to use their electronic identity, it is important that the system first validate that
identity. DIRM’s conceptual design for ENTRUST’s automated registration process, however,
contained a limitation that could result in electronic identity compromise. Specifically, the
                                                   7
potential exists for one system user to disguise himself or herself as another system user and be
registered to use ENTRUST as that other user. The masquerade could continue until the
legitimate user attempts the ENTRUST registration process.

Such “masquerading” could occur because the proposed automated ENTRUST registration
process did not link the social security number of the registering user with the Windows-NT
login process. The Windows NT login process is the validation of a user’s identity before
permitting access to the FDIC’s local and wide area networks. DIRM planned to register users
under ENTRUST by having them enter their social security number during the registration
process following successful NT access but without precluding them from entering the social
security number of another. This process could increase the FDIC’s exposure to masquerading
because of the availability of user social security numbers within the FDIC, including their
display on hardcopy documents such as time sheets, leave slips, and training forms.

The effect of this condition is twofold. First, successful ENTRUST automated registration
process masquerading would permit a masquerader to assume another’s identity and send
encrypted or signed information to other users. A masquerader would also be able to accept and
use encrypted and signed information sent by others to the legitimate user whose identity the
masquerader has assumed. Second, masquerading, regardless of duration, may permit
inappropriate use of impacted business applications such as the ETVPS. In other words, travel
information may be falsified or improperly approved and could result in fraudulent claims for
reimbursement.

DIRM agreed that this condition warranted corrective action and has agreed to modify the
automated registration process design to restrict a user from employing the social security
number of another user to achieve successful ENTRUST registration. We, therefore, are not
making any formal recommendations related to this condition.

CORPORATION COMMENTS AND OIG EVALUATION

On March 4, 1999, the Director, DIRM, provided a written response to the draft report. The
response is presented in Appendix II of this report. The Director, DIRM, stated that he will
complete actions to address the report's findings by August 31, 1999.

The Corporation’s response to the draft report provided the elements necessary for management
decisions on the report’s recommendations. Therefore, no further response to this report is
necessary. Appendix III presents management’s proposed action on our recommendations and
shows that there is a management decision for each recommendation in this report.




                                                 8
APPENDIX I                                                                      APPENDIX I
                                DETAILS OF CONDITIONS

ENTRUST System Qualification Testing Could Be Improved in the Following Areas:
§ Secure Exchange Protocol and ENTRUST Session use to secure communication among the
  ENTRUST manager, administration, and client components.
§ Sun Solaris ENTRUST platform password and other operating system level security features.
§ Non-FIPS mode operating parameter of ENTRUST. When operating in this mode, NIST
  accreditation of the ENTRUST cryptographic module is nullified.
§ Encryption method option of ENTRUST. This option permits system users to select
  cryptographic algorithms for encrypting sensitive corporate data that are not NIST-
  sanctioned.
§ ENTRUST network performance.


PKI Internal Control Practices Not Fully Documented
§ ENTRUST installation and customization documentation, in terms of (1) the International
   Computers Limited's (ICL) X500 directory operational attribute settings governing access
   control and shadowing, (2) Sun Solaris operating system security features used, and
   (3) ENTRUST security policy configuration, or simply stated, the use of ENTRUST features
   to achieve the FDIC’s security objectives was incomplete.
§ ENTRUST and SCM software configuration management practices documentation was
   limited to the build process employed for all multi-tiered application architecture common
   objects. Software configuration management is an umbrella activity that controls the
   application of changes to software.
§ Secure Communication Manager (a software component of the FDIC Multi-Tier Application
   Manager Architecture that provides encryption and electronic signature services to business
   applications) test documentation was incomplete.
§ Automated ENTRUST registration process (procedures followed to validate a user's identity
   as a prerequisite to assigning them an electronic identity such as a digital certificate)
   documentation was limited to a six-page draft of system qualification test requirements,
   prerequisites, and scripts document.
§ High assurance certificate policy and practice statements were not yet available.
§ ENTRUST Manager file descriptions were incomplete in terms of the purpose of binary files
   and their relationship to the software-based CA.




                                              9
                                                                                                    APPENDIX II
                                         CORPORATION COMMENTS
FDIC
Federal Deposit Insurance Corporation
3501 North Fairfax Drive. Arlington, VA 22226        Division of Information Resources Management




March 4, 1999

MEMORANDUM TO:                         David H. Loewenstein
                                       Assistant Inspector General



FROM:                                  Donald C. Demitros, Director
                                       Division of Information Resources Management

SUBJECT:                               DIRM Management Response to the Draft OIG Report Entitled,
                                       Cryptographic Infrastructure Design (CID) Audit
                                       (Audit Number 97-902)


The Division of Information Resources Management (DIRM) has reviewed the draft audit report
and, in general, agrees with the findings and recommendations.

We would like to thank the OIG staff for working so closely with the DIRM ISS staff during the
preparation of this report. The recommendations of the OIG on this audit has enabled DIRM to
identify and implement a number of corrective actions to date. Examples include DIRM’s
expansion of testing and tightening of access privileges to sensitive files associated with the
Performance Reports On-line System (PROS) during the review of the secure-sockets-layer
(SSL) software; expansion of PROS security documentation; and improved ENTRUST security
and control documentation including Public Key Infrastructure (PKI) Concepts of Operation and
ENTRUST Installation documents. PKI policies and procedures were also enhanced relative to
low and moderate risk applications.

Each of the conditions and recommendations from the draft report are identified below. DIRM’s
management response including any corrective action is provided immediately following each
specific recommendation.




                                                        10
                                                                                       APPENDIX II
                                CORPORATION COMMENTS

ENTRUST SYSTEM QUALIFICATION TESTING COULD BE IMPROVED

Recommendations

We recommend that the Director, DIRM, continue to:

(1) Ensure that SQT of major PKI control features of and related to ENTRUST are performed and
    documented to supplement the FIPS 140-1 CMV testing.

   Corrective Action: The Information Security Staff (ISS) is developing a comprehensive set of
   test plans to fully test all aspects of the FDIC PKI. The former virus test lab has been modified
   to accommodate PKI component testing. Expected completion of the testing is 6/30/99.

(2) Enforce the use of only NIST-sanctioned cryptographic algorithms through ENTRUST for
    encrypting sensitive corporate data.

   Management Response: DIRM Security Policy 98-012, FDIC Encryption/Digital Signature
   and Public Key Infrastructure (PKI) Standard published 9/29/98 states that ENTRUST
   hardware and software is the corporate standard for encryption/digital signature and Public
   Key Infrastructure (PKI). FDIC applications that use ENTRUST will make use of NIST-
   sanctioned algorithms and those algorithms will be provided as the initial default selection.

(3) Prevent system users from being able to choose the cryptographic algorithm to be used for
    encrypting sensitive corporate data.

   Corrective Action: FDIC organizations have a business need for secure communications
   within the corporation and with external business partners including commercial firms, state
   bank examiners, etc. By 8/31/1999, DIRM will prepare a policy memorandum specifying the
   cryptographic algorithm to be used for secure internal communications and will provide this
   algorithm as the initial default when deploying ENTRUST. Because of the need for secure
   external communications that must use the cryptographic algorithm selected by our business
   partners, the ability to select other than the initial default algorithm must also be made available.
   DIRM staff, in conjunction with OIG staff, will work to identify technical alternatives to this
   current procedure. If OIG can commit resources, DIRM proposes to conduct this identification
   of technical alternatives, if any, by 6/30/99.

(4) Ensure that the version of ENTRUST used at the FDIC operates in FIPS mode.

   Corrective Action: A revised entrust.ini file which will change the ENTRUST version used at
   the FDIC so that it will operate in FIPS mode will be distributed following testing by DIRM ISS
   Operations. Estimated completion date 8/31/99.

                                                  11
                                                                                APPENDIX II
                              CORPORATION COMMENTS

ENTRUST MULTIPLE AUTHORIZATION FEATURE NOT IN USE

Recommendation

We recommend that the Director, DIRM, ensure that:

(5) The ENTRUST multiple authorization feature be set to a minimum of two so that all
    sensitive PKI operations require the involvement of at least two individuals.

   Corrective Action: The ENTRUST multiple authorization feature can currently be set to a
   minimum of two for some sensitive PKI operations. DIRM is setting this feature at a
   minimum of two for select actions by Security Officers. In addition, DIRM will set this
   feature for the Entrust Manager, which currently uses a software implementation that is
   specific to three Master Users. DIRM is in the process of identifying and obtaining
   necessary hardware required to support all remaining sensitive PKI operations. ISS is
   currently obtaining Level 3 – 4 hardware cryptographic modules for lab testing with our PKI.
   The conversion to a hardware cryptographic module is predicated on the conversion of the
   Entrust Manager from its current version (3.0c1) to version 4.X running on a Windows NT
   server. A cost benefit analysis was conducted showing the importance of maintaining the
   initial approach of converting from Unix to Windows NT. Estimated completion date for
   enabling the multiple authorization feature for select Security Officers and Entrust Manager
   actions is 6/30/99. The estimated completion date for obtaining and implementing the
   necessary hardware and setting the multiple authorization feature on the remaining sensitive
   PKI operations is 8/31/99.

THE FDIC’s X500 DIRECTORY AND CERTIFICATE AUTHORITY WERE
OPERATING FROM THE SAME PLATFORM

Recommendation

We recommend that the Director, DIRM:

(6) Require operation of the FDIC X500 directory and CA from separate hardware platforms.

   Corrective Action: DIRM is developing procedures and guidance to require operation of the
   FDIC X500 directory and CA from separate hardware platforms. Current estimated completion
   date is 8/31/99.




                                              12
                                                                                APPENDIX II
                              CORPORATION COMMENTS

PKI INTERNAL CONTROL PRACTICES NOT FULLY DOCUMENTED

Recommendation

We recommend that the Director, DIRM:

(7) Continue to require that complete and accurate documentation describing the control
practices used in operating and managing the FDIC PKI be established and maintained.

   Corrective Action: DIRM ISS is in the process of updating and validating all test,
   operation, and recovery procedures and documentation. OIG personnel will be provided
   documentation as it is prepared. Estimated completion is 6/30/99.


Please address any questions to DIRM’s Audit Liaison, Rack Campbell, on 516-1422.


cc: Robert M. Cittadino, OICM
    Howard Furner, OICM




                                              13
                                                                                                                                                            APPENDIX III

                                                      MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to the
Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response must
describe for each recommendation

    §   the specific corrective actions already taken, if applicable;
    §   corrective actions to be taken together with the expected completion dates for their implementation; and
    §   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement. In the
case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming completion of
corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for
management decisions is based on management’s written response to our report and subsequent discussions with management representatives.




                                                                                     14
                                                                                         Documentation That                  Management
 Rec.                                                                     Expected          Will Confirm          Monetary   Decision: Yes
Number        Corrective Action: Taken or Planned/Status               Completion Date      Final Action          Benefits      or No
         The Corporation agreed with the recommendation.
                                                                                         DIRM documented test
  1      DIRM will perform the recommended testing of major             June 30, 1999                              None          Yes
                                                                                               results
         PKI control features.
         The Corporation agreed with the recommendation.
         DIRM will issue a policy memorandum specifiying that                                 DIRM policy
                                                                                                                                 Yes
  2      FDIC applications will use NIST sanctioned algorithms.        August 31, 1999      memorandum and         None
         Such algorithms will also be provided as the initial                             system specifications
         default selection.
         The Corporation agreed with the recommendation.
         DIRM will issue a policy memorandum specifying the
         cryptographic algorithms to be used for internal
                                                                                              DIRM policy
         communications and will provide this algorithm as the
  3                                                                    August 31, 1999     memorandum and          None          Yes
         initial default when deploying ENTRUST. DIRM will
                                                                                          alternatives analysis
         also perform an analysis to identify alternative methods
         for controlled use of other algorithms to facilitate secure
         external communication with selected business partners.
         The Corporation agreed with the recommendation.
                                                                                         DIRM documented test
         DIRM will test and distribute a revised entrust.ini file
  4                                                                    August 31, 1999    results and software     None          Yes
         that will ensure that the ENTRUST software operates in
                                                                                          distribution records
         FIPS mode.
                                                                                             DIRM system
         The Corporation agreed with the recommendation.
                                                                                             specifications
         DIRM will change the ENTRUST multiple authorization
  5                                                                    August 31, 1999       supporting the        None          Yes
         feature so that more than one individual is involved with
                                                                                          ENTRUST multiple
         all sensitive PKI operations.
                                                                                          authorization feature
         The Corporation agreed with the recommendation.                                   DIRM PKI system
  6      DIRM will operate the X500 directory and certificate          August 31, 1999       configuration         None          Yes
         authority from separate hardware platforms.                                        documentation
         The Corporation agreed with the recommendation.
         DIRM will establish complete and accurate control                                 DIRM PKI control
  7                                                                     June 30, 1999                              None          Yes
         practice documentation for PKI operation and                                    practice documentation
         management.




                                                                             15
